                                                         Unit d Slat Deparlment of State
                                                         and th Broa 'a ~ tillO" Board of Governors

                                                         Office of Inspector General

                                                             OCT 26 2012




MEMORANDUM

TO:            CA - Ms. Janice Jacobs

FROM:          OIG - Harold w.   GeiSel~/?9r
SUBJECT:       Review of Consular Leadership (ISP-I-13-03)



        The Office of Inspector General (OIG) reviewed consular leadership, during inspections
of 34 posts from May 2010 through June 2011, as a specific area of emphasis to determine
whether the Department of State is developing a cadre of consular leaders who take their
mentoring and training responsibilities seriously, handle performance issues effectively, foster
good morale and teamwork, and integrate consular activities into overall mission objectives.
OIG's review indicated that consular leadership at posts is generally good. Most managers
actively lead their sections, promote mentoring and professional development, engage
meaningfully with post leadership, handle performance issues appropriately, and have regular
team-building acti vities.

        OIG identified one issue that merits further consideration: deputy chief of mission
(DCM) or principal officer review of nonimmigrant visa adjudications by the consular chief was
uneven in the posts OIG reviewed. While most DCMs and principal officers carried out their
review responsibilities as mandated by 9 F AM 41 .113, PN 17, OIG is concerned that, in many
cases, the reviews are done in a pro forma manner, possibly due to the limited amount of time the
DCMs and principal officers have to devote to this task.

Informal Recommendation: The Bureau of Consular Affairs should evaluate the adjudication
review process to determine if deputy chief of mission or principal officer review of consular
manager adjudications is the most effective and efficient means of oversight and should review
the Foreign Affairs Manual as appropriate.

        Informal recommendations cover operational matters not requiring action by
organizations outside the scope of this review. Informal recommendations are not subject to the
OIG compliance process. However, any subsequent OIG inspection or on-site compliance review
will assess your progress in implementing informal recommendations.




                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



        I would be happy to meet with you to discuss this matter further, or your staff may
contact (b) (6)            Assistant Inspector General for Inspections, by email at
(b) (6)   @,state .gov or by telephone on 202-663-(b) (6)




                                                 2

                              SENSITIVE BUT UNCLASSIFIED
